No. 21-5592
IN THE

Supreme Court of the United States
JOHN H. RAMIREZ,
Petitioner,
v.
BRYAN COLLIER, EXECUTIVE DIRECTOR,
TEXAS DEPARTMENT OF CRIMINAL JUSTICE, ET AL.,
Respondents.

CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 15th day of October, 2021, I caused three copies of the Brief of Pablo Castro’s
Children Maria Chavon Aguilar, Fernando Castro, Pablo Castro Jr., and Roberto
Salcedo Jr. as Amici Curiae in Support of Respondents to be served by third-party
commercial carrier on the counsel identified below, and caused an electronic version to
be transmitted to the counsel identified below, pursuant to Rule 29.5 of the Rules of this
Court. All parties required to be served have been served.
Seth Kretzer
LAW OFFICE OF SETH KRETZER
9119 South Gessner
Suite 105
Houston, TX 77054
(713) 775-3050
seth@kretzerfirm.com

Judd Edward Stone II
TEXAS ATTORNEY GENERAL’S OFFICE
P.O. Box 12548 (MC 059)
Austin, TX 78711
(512) 936-1700
judd.stone@oag.texas.gov
Counsel for Respondents

Counsel for Petitioner

Bradley G. Hubbard

